IN THE

Supreme Court of the United States

No.

SHAHROKH MIRESKANDARI,

Petitioner,
Vv.

BARRINGTON MAYNE, ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

Pursuant to this Court’s Rule 33.1(h), | hereby certify that the Petition for a Writ of
Certiorari contains 8,438 words, excluding parts of the document that are exempted by
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2020.

BECKY S. JAMES

Counsel of Record
JAMES & ASSOCIATES
4500 Park Granada, Suite 202
Calabasas, CA 91302
(310) 492-5104
bjames@jamesaa.com

Counsel for Petitioners
